1a
APPENDIX A
IN THE COURT OF APPEALS
OF THE STATE OF WASHINGTON
BURIEN COMMUNITIES FOR No. 77500-6-I
INCLUSION, a Washington
DIVISION ONE
political committee,
UNPUBLISHED
Respondent,
OPINION
v.
RESPECT WASHINGTON, a
Washington political committee,
Appellant,
KING COUNTY ELECTIONS;
JULIE WISE, King County
Director of Elections, in her
ofﬁcial capacity at King County
Elections; and CITY OF BURIEN, FILED:
September 9, 2019
Defendants.
APPELWICK, C.J.—On September 14, 2017, the trial
court granted Burien Communities for Inclusion (BCI)
a preliminary injunction, prohibiting Burien Initiative
1 (Measure 1) from being placed on the November 2017
ballot. Respect Washington appeals the preliminary injunction, arguing that (1) it violates the free speech
rights of the city of Burien’s (City) voters, (2) the trial
court erred in altering the status quo, and (3) BCI
failed to show substantial injury. It also contends that
Measure 1 is within the scope of the City’s initiative
power. We afﬁrm.

2a
FACTS
On January 9, 2017, the Burien City Council
passed Ordinance 651 (Ordinance). The Ordinance is
now codified at Burien Municipal Code (BMC) 2.26.010.030. BMC 2.26.020 provides that “a City ofﬁce, department, employee, agency or agent shall not condition
the provision of City services on the citizenship or immigration status of any individual,” except as otherwise required by law. It prohibits City personnel from
initiating any inquiry or enforcement action based
solely on a person’s civil immigration status, race, inability to speak English, or inability to understand City
personnel or ofﬁcers. BMC 2.26.020(4) And, it forbids
City ofﬁcials from creating a registry for the purpose
of classifying people on the basis of religious afﬁliation,
or conducting a study related to the collection of such
information. BMC 2.26.030.
On July 7, 2017, Craig Keller, the campaign manager, treasurer, and ofﬁcer of Respect Washington, a
Washington political committee submitted an initiative petition to the City. The petition asked that an initiative repealing the Ordinance, Measure 1,1 be
submitted to a vote of the City’s registered voters. In
addition to repealing the Ordinance, Measure 1 would
add the following chapter to the BMC:
New Chapter 9.20 is hereby added to the
Burien Municipal Code “Public Peace, Morals
and Welfare” to read as follows:

1

Both parties refer to this initiative as “Measure 1.”

3a
9.20 Citizen Protection of Effective Law Enforcement: The City of Burien shall not regulate the acquisition of immigration status or
religious afﬁliation unless such regulation is
approved by a majority vote of the City Council and a majority vote of the people at a municipal general election.
Two weeks later, the King County Department of
Elections found that a sufﬁcient number of signatures
had been submitted for Measure 1, and issued a certificate of sufﬁciency. The Burien City Council then voted
to place Measure 1 on the November 7, 2017 ballot.
On September 8, 2017, Burien Communities for
Inclusion (BCI), a Washington political committee,
ﬁled a complaint for declaratory and injunctive relief
against Respect Washington, King County Elections,
King County Director of Elections Julie Wise, and the
City. It sought a declaratory judgment that Measure 1
is invalid, arguing in part that (1) it exceeds the scope
of the City’s initiative power, and (2) the petition used
to gather signatures violates RCW 35.21.005. It also
asked the trial court to enjoin Measure 1 from being
included on the November 2017 ballot.
Three days later, BCI sought and obtained a temporary restraining order (TRO). The TRO prohibited
King County Elections and Wise from placing Measure
1 on the November 7, 2017 ballot. As a result, King
County removed Measure 1 from the ballot. In granting the TRO, the trial court ordered that, on September
13, the matter be heard on a motion for a preliminary

4a
injunction, at which time the TRO would expire.2 The
deadline for King County Elections to send the ballots
to the printer was the next day, September 14.
On September 14, 2017, the trial court granted
BCI’s motion for a preliminary injunction. In doing so,
it ordered the following:
1.

City of Burien Initiative Measure No. 1
(“Measure 1”) is invalid on the grounds
that (a) Measure 1 exceeds the scope of
the initiative authority granted to the
people of the City of Burien, that it is
administrative in nature, and (b) the petition used to gather signatures for
Measure 1 violated RCW 35.21.005 by
deviating from the requirements for the
contents and form of a petition, as set
forth in RCW 35.17.240 through
35.17.360;

2.

Defendants King County Elections, Julie
Wise, King County Director of Elections,
and all agents of King County Elections
are prohibited from including or placing
Measure 1 on the November 7, 2017 ballot.

Respect Washington appeals.3

2

On September 12, 2017, BCI ﬁled a motion for a preliminary injunction, asking the trial court to enjoin King County Elections and Wise from including Measure 1 on the ballot.
3
Respect Washington did not seek a stay of the trial court
decision. Instead, on October 27, 2017, it ﬁled a motion with this
court, asking the court to treat the order as an appealable order

5a
DISCUSSION
Respect Washington makes six arguments.4 First,
it argues that BCI is not entitled to any relief because
its complaint is barred by the statute of limitations
and laches. Second, it argues that the preliminary injunction violated the free speech rights of the City’s
voters. Third, it argues that the trial court erred in
granting a preliminary injunction that altered the
status quo. Fourth, it argues that BCI failed to show
that substantial injury would result from Measure 1’s
placement on the ballot. Fifth, it argues that Measure
1 does not exceed the scope of the City’s initiative
power, and is legislative in nature. And sixth, it argues

under RAP 2.2(a)(3), or, alternatively, to grant discretionary review. On January 3, 2018, this court ordered that review would
go forward as an appeal. The court explained that, despite not
obtaining a declaratory judgment or permanent injunction, as a
practical matter, BCI obtained the relief it requested.
4
As an initial matter, BCI argues that all of Respect Washington’s claims are moot. This case may be moot, because Measure
1 can no longer be placed on the November 2017 ballot. See Randy
Reynolds & Assocs., Inc. v. Harmon, 193 Wn.2d 143, 152, 437 P.3d
677 (2019) (ﬁnding that an appeal was moot because the Court of
Appeals could no longer offer effective relief ). However, Respect
Washington contends that Measure 1’s placement on another ballot is relief that this court can provide. Even if a case becomes
moot, “the court has discretion to decide an appeal if the question
is of continuing and substantial public interest.” Id. “Washington
courts have repeatedly entertained suits involving the right of initiative or referendum despite possible mootness because the
suits entail substantial public interest.” Glob. Neighborhood v.
Respect Wash., 7 Wn. App. 2d 354, 379, 434 P.3d 1024 (2019).
Accordingly, regardless of whether Respect Washington’s claims
are moot, we reach the merits of this case.

6a
that the petition used to gather signatures did not violate RCW 35.21.005.5
I.

Statute of Limitations and Laches

Respect Washington argues that BCI was not entitled to any relief because its claims were “barred by
the statute of limitations or laches.” It points out that
the Burien City Council voted to place Measure 1 on
the November 2017 ballot at a public meeting on August, 7, 2017. BCI did not ﬁle its complaint until September 8, 2017.

5
Respect Washington also argues that the trial court “erred
by shortening the time to respond to motions.” It states that, on
September 11, 2017, BCI ﬁled its motion for a TRO, the trial court
“scheduled a preliminary injunction hearing two days later,” and
this time frame “did not permit any party to comply with the rules
governing the ﬁling of motions.” It relies on King County Local
Civil Rule 7(b)(4)(a), which provides that “[t]he moving party
shall serve and ﬁle all motion documents no later than six court
days before the date the party wishes the motion to be considered.” However, under King County Local Civil Rule 65(b)(2), a
preliminary injunction hearing “shall be set in conformance with
the timing requirements of CR 65(b).” Thus, Local Civil Rule
7(b)(4)(a) does not apply. Under CR 65(b), “[i]n case a [TRO] is
granted without notice, the motion for a preliminary injunction
shall be set down for hearing at the earliest possible time and
takes precedence over all matters except older matters of the
same character.” And, “[n]o preliminary injunction shall be issued
without notice to the adverse party.” CR 65(a)(1). Respect Washington does not argue that it lacked notice of the preliminary injunction. As a result, the trial court did not err in setting a
preliminary injunction hearing two days after it granted BCI a
TRO.

7a
Respect Washington asserts ﬁrst that BCI brought
its claims under the Uniform Declaratory Judgments
Act (UDJA), chapter 7.24 RCW. Because the UDJA
does not have its own statute of limitations, it states
that “courts are to apply an analogous statute of limitations.” Respect Washington points to three election
related statutes of limitations as examples.
First, a challenge to the ballot title or summary for
a state initiative or referendum must be brought
within 5 days from the ﬁling of the ballot title. RCW
29A.72.080. Second, a challenge to the ballot title for a
local ballot measure must be brought within 10 days
from the ﬁling of the ballot title. RCW 29A.36.090.
Third, a challenge to the Secretary of State’s refusal
to ﬁle an initiative or referendum petition must be
brought within 10 days after the refusal. RCW
29A.72.180.
This court recently considered an identical argument in Global Neighborhood v. Respect Washington, 7
Wn. App. 2d 354, 434 P.3d 1024 (2019). There, on February 22, 2016, the Spokane City Council placed Proposition 1 on the November 2017 ballot. Id. at 369.
Global Neighborhood did not ﬁle its complaint addressing the validity of Proposition 1 until May 2017, and
did not move fora declaratory judgment prohibiting
Proposition 1 from being placed on the ballot until July
28, 2017. Id. at 372-73. The trial court declared Proposition 1 invalid because it was administrative in nature and exceeded the local initiative power and
entered an injunction directing its removal from the
ballot. Id. at 374.

8a
On appeal, Respect Washington asserted the statute of limitations as a defense, and provided this court
with the same election related statutes of limitations.
Id. at 380-81. This court stated that “[s]igniﬁcant differences lie between a challenge to the title of an initiative and a challenge to the substance of an initiative.”
Id. at 381. It explained,
The initiative if adopted will take effect regardless of any defect in its title. If any lawsuit will remedy the ﬂaw in the initiative’s
name, the lawsuit should be brought in advance of the election and in time for the secretary of state or local government ofﬁcial to
place a proper title on the ballot. A challenge
to a refusal to place an initiative on the ballot
also should be brought quickly in order to
remedy any wrongful refusal to consign the
measure to the ballot.
A challenge to a local initiative as exceeding
the scope of a municipality’s legislative power
may be brought after the initiative election. If
the challenge can be brought after the vote,
we should erect no impediment by reason of a
statute of limitations applying before the effectiveness of initiative as an ordinance.
Id.
As a result, it deemed the preelection challenge
to a ballot initiative “analogous to a challenge to an
adopted ordinance or statute.” Id. In Washington, “no
statute of limitations applies to a challenge to the
constitutionality of a statute or other action.” Id. This

9a
court held that, similarly, “no statute of limitations
should apply to the challenge of an ordinance that exceeds the authority of the entity adopting the measure
whether by its legislative body or the voters by initiative.” Id. at 382. It also pointed out that many Washington decisions have “entertained preelection
initiative challenges without suggesting a statute of
limitations that applied before the election might bar
such a challenge.” Id. We adhere to that decision, and
that ﬁnd that BCI’s claims were not barred by a statute
of limitations.
Alternatively, Respect Washington argues that
BCI’s claims should have been barred by laches.
“Laches is an implied waiver arising from
knowledge of existing conditions and acquiescence in
them.” Buell v. City of Bremerton, 80 Wn.2d 518, 522,
495 P.2d 1358 (1972). The elements of laches are: “(1)
knowledge or reasonable opportunity to discover on
the part of a potential plaintiff that he has a cause of
action against a defendant; (2) an unreasonable delay
by the plaintiff in commencing that cause of action;
(3) damage to the defendant resulting from the unreasonable delay.” Id. None of these elements alone raises
a laches defense, Id.
Respect Washington also raised a laches defense
in Global Neighborhood. 7 Wn. App. 2d at 380. There,
the trial court issued its decision prohibiting Proposition 1’s placement on the ballot a week before the deadline for printing ballots. Id. at 384. Respect Washington
did not seek accelerated review by this court. Id. at 385.

10a
This court determined that, even if Global Neighborhood’s delay in ﬁling its complaint was unreasonable,
the delay did not harm Respect Washington. Id. at 384.
This court noted that Respect Washington failed
to cite authority for the proposition that a delay in appellate review constitutes harm for purposes of laches.
Id. at 384-85. Its claim also “assume[d] that this court
would reverse the superior court’s decision and allow
Proposition 1 to be submitted for a vote.” Id. at 385.
And, it assumed that “it had the right to vote on an
initiative that exceeded the initiative power.” Id. This
court pointed out that, “[i]f anything, the Spokane public is prejudiced by the expense incurred by the city of
Spokane in conducting a special election for an initiative beyond the scope of the initiative power.” Id. Last,
it noted that Respect Washington assumed that “this
court lacks authority to direct placement of Proposition 1 on a later ballot,” and “fail[ed] to recognize the
possibility of accelerated review by this court.” Id.
Similarly here, Respect Washington argues that
“[t]he delay until . . . the eve of printing the ballots—
never before done in the context of an initiative challenge—was an unreasonable delay.” Unlike Global
Neighborhood, BCI sought a TRO three days before the
printing deadline, sought a preliminary injunction two
days before the printing deadline, and was granted a
preliminary injunction on the same day as the printing
deadline. Respect Washington makes the same assumptions that it did in Global Neighborhood. Its
claim of harm assumes that this court would reverse
the trial court’s decision, and that it has the right to

11a
vote on an initiative that exceeds the initiative power.
And, again, it fails to recognize the possibility of accelerated review by this court.6
We adhere to our decision in Global Neighborhood
and ﬁnd that Respect Washington was not harmed by
BCI’s delay in seeking a TRO and preliminary injunction.
II.

Preliminary Injunction

Respect Washington makes three arguments regarding the trial court’s decision to grant a preliminary
injunction.7 It argues that the trial court (1) violated

6

In this case, Respect Washington did not seek accelerated
review by this court, or a stay of the trial court’s decision. Instead,
on October 27, 2017, it ﬁled a motion to determine whether the
preliminary injunction was an appealable order, and, alternatively, a motion for discretionary review.
7
Respect Washington also argues that the injunction is invalid because the trial court did not require BCI to post a bond.
Under CR 65(c), “Except as otherwise provided by statute, no . . .
preliminary injunction shall issue except upon the giving of security by the applicant.” (Emphasis added.) Respect Washington
agrees that BCI brought its complaint under the UDJA. Under
that Act, “The court, in its discretion and upon such conditions
and with or without such bond or other security as it deems necessary and proper may . . . restrain all parties involved in order
to secure the beneﬁts and protect the rights of all parties to the
court proceedings.” RCW 7.24.190 (emphasis added). Accordingly,
under RCW 7.24.190, no bond was required. See Yamaha Motor
Corp. v. Harris, 29 Wn. App. 859, 865, 631 P.2d 423 (1981) (holding that the trial court did not err in failing to require Yamaha to
post a bond where RCW 4.44.480 provides that the court may order a party to deposit money into the court “with or without

12a
the free speech rights of the City’s voters, (2) improperly altered the status quo, and (3) failed to show substantial injury.
This court reviews a trial court’s decision to grant
a preliminary injunction and the terms of that injunction for an abuse of discretion. Resident Action Council
v. Seattle Hous. Auth., 177 Wn.2d 417, 428, 327 P.3d
600 (2013). “A trial court necessarily abuses its discretion if the decision is based upon untenable grounds,
or the decision is manifestly unreasonable or arbitrary.” Kucera v. Dep’t of Transp., 140 Wn.2d 200, 209,
995 P.2d 63 (2000).
A party seeking a preliminary injunction must
show “ ‘(1) that he has a clear legal or equitable right,
(2) that he has a well-grounded fear of immediate invasion of that right, and (3) that the acts complained
of are either resulting in or will result in actual and
substantial injury to him.’ ” Tyler Pipe Industries, Inc.
v. Dep’t of Revenue, 96 Wn.2d 785, 792, 638 P.2d 1213
(1982) (quoting Port of Seattle v. Int’l Longshoremen’s
& Warehousemen’s Union, 52 Wn.2d 317, 319, 324 P.2d
1099 (1958)). This listed criteria “must be examined in
light of equity including balancing the relative interests of the parties and, if appropriate, the interests of
the public.” Id. If a party fails to establish any one of
these requirements, “the requested relief must be denied.” Kucera, 140 Wn.2d at 210.

security”). The trial court did not err in failing to require BCI to
post a bond.

13a
A. Free Speech
Respect Washington argues that the preliminary
injunction violates the First Amendment rights of the
City’s voters. Relying on Coppernoll v. Reed, 155 Wn.2d
290, 119 P.3d 318 (2005), it asserts that the State Supreme Court “has noted that there are free speech implications in even invalid initiatives.”
The Coppernoll court examined the extent to
which the Washington Constitution permits preelection review of a statewide initiative. Id. at 297, 299. In
doing so, it explained that “[b]ecause ballot measures
are often used to express popular will and to send a
message to elected representatives (regardless of potential subsequent invalidation of the measure), substantive preelection review may also unduly infringe
on free speech values.” Id. at 298. But, it recognized
that Washington courts have entertained preelection
review of two types of challenges to statewide initiatives: (1) whether a ballot measure fails to comply with
procedural requirements, and (2) whether a ballot
measure exceeds the scope of the legislative power under article II, section 1 of the Washington Constitution.
Id. at 298-99. Thus, the court recognized that some circumstances warrant preelection review.
Next, Respect Washington attempts to distinguish
this case from Port of Tacoma v. Save Tacoma Water, 4
Wn. App. 2d 562, 422 P.3d 917 (2018), review denied
192 Wn.2d 1026, 435 P.3d 267 (2019). There, the trial
court issued a permanent injunction preventing Save
Tacoma Water (STW) from placing two initiatives on

14a
the Tacoma municipal ballot that would limit the
availability of Tacoma’s water service. Id. at 566-67. It
determined that the initiatives were beyond the scope
of the local initiative power. Id. at 566.
On appeal, STW argued that the trial court’s determination and issuance of an injunction violated its
free speech rights under the federal and state constitutions. Id. at 576. This court disagreed. Id. at 577, 579.
It explained that this argument was rejected by the
Ninth Circuit in Angle v. Miller, 673 F.3d 1122 (2012),8
and differentiated the injunction from one that classiﬁes speech on the basis of subject matter or content.
Port of Tacoma, 4 Wn. App. 2d at 577-78. It stated,
[T]he injunction rests on the principles that a
measure is beyond the local initiative power
if it is administrative or in conﬂict with state
law. Neither the injunction nor the principles
on which it is based distinguish among
measures or in associated speech activities on
the basis of content or subject matter.
Id. at 578.
Similarly here, the preliminary injunction rests on
the principle that a measure is beyond the local initiative power if it is administrative in nature. Respect
Washington asserts that, unlike Port of Tacoma, “it is
the First Amendment right of the people of Burien
which has been violated.” This distinction between Respect Washington’s free speech rights, and the rights of
8
The Angle court held that “[t]here is no First Amendment
right to place an initiative on the ballot” id. at 1133.

15a
the City’s voters, is not meaningful. Respect Washington cites no authority for the proposition that the City’s
voters have a free speech right under the federal or
state constitutions to vote on an initiative that exceeds
the scope of the local initiative power. Where no authorities are cited in support of a proposition, this court
“may assume that counsel, after diligent search, has
found none.” DeHeer v. Seattle Post-Intelligencer, 60
Wn.2d 122, 126, 372 P.2d 193 (1962). Therefore, we do
not consider this argument. RAP 10.3(a)(6) (requiring
arguments to be supported by legal authority).
The preliminary injunction was based on the initiative exceeding the scope of the local initiative power,
not the substance of the policy stance taken. It does not
violate the free speech rights of the City’s voters.
B. Status Quo
Respect Washington argues that the trial court
improperly disposed of the entire case by granting BCI
“all that they sought in their [c]omplaint.” It states
that, by issuing the preliminary injunction on the same
date as the deadline for sending ballots to the printer,
the trial court “ensured that Measure 1 would not appear on the ballot and thus disposed of the case under
the guise of granting a preliminary injunction.” Respect Washington also contends that, by removing
Measure 1 from the ballot, the trial court improperly
altered the status quo that existed prior to BCI ﬁling
its complaint.

16a
First, Respect Washington asserts that the trial
court erred by effectively disposing of this case on the
merits when it granted the preliminary injunction. It
relies on a proposition from a 1940 State Supreme
Court case providing that, where a preliminary injunction would effectively grant all the relief that could be
obtained by a ﬁnal decree and would practically dispose of the whole case, it will not be granted. State ex
rel. Pay Less Drug Stores v. Sutton, 2 Wn.2d 523, 532,
98 P.2d 680 (1940).
In BCI’s complaint, it sought a declaratory judgment that “Measure 1 is procedurally and substantively invalid,” an injunction preventing Measure 1’s
placement on the November 2017 ballot, attorney fees
and costs, and “further relief as the [c]ourt deems just
and proper.” On September 14, 2017, the same day as
the printing deadline, the trial court issued a preliminary injunction ﬁnding Measure 1 invalid and preventing its placement on the November 7, 2017 ballot. The
court appeared to contemplate future action in the
case, stating that “[t]he injury if Measure No. 1 is
placed on the ballot now outweighs any delay in having
the Measure on the ballot at a future point in time;
mere delay is not the same as an outright denial.”
After the trial court issued the preliminary injunction, Respect Washington did not seek a stay of the
court’s decision, or accelerated review by this court.
Rather, it waited until October 27, 2017 to ﬁle a motion
with this court, asking us to treat the order as an appealable order under RAP 2.2(a)(3), or, alternatively, to
grant discretionary review. In January 2018, this court

17a
found the order appealable, and, in July 2018, the trial
court proceedings were stayed.
As a practical matter, the preliminary injunction
granted BCI the relief it sought—a determination that
Measure 1 is invalid, and an injunction preventing its
placement on the November 2017 ballot. But, the preliminary injunction was not a ﬁnal determination on
the merits of the case. It was ﬁnal only in the sense
that the issue did not appear on the November 2017
ballot. But, the trial court appeared to contemplate future action in the case by referring to the “delay” in
having Measure 1 “on the ballot at a future point in
time.” And, we agree that placing the measure on a future ballot was relief that remained available when the
preliminary injunction issued.
Accordingly, because the preliminary injunction
was not a ﬁnal determination on the merits, the trial
court did not improperly dispose of the case.
Second, Respect Washington argues that the trial
court improperly altered the status quo by granting
BCI a preliminary injunction. It states that the status
quo as of August 7, 2017 “was that Measure 1 was to
appear on the ballot.”
A preliminary injunction is designed to preserve
the status quo until the trial court can conduct a full
hearing on the merits. Serv. Emps. Int’l Union Local
925 v. Univ. of Wash., 4 Wn. App. 2d 605, 621, 423 P.3d
849 (2018), review granted 192 Wn.2d 1016, 438 P.3d
111 (2019). But, the State Supreme Court has repeatedly upheld trial court decisions preventing an

18a
initiative’s placement on a ballot. See, e.g., Spokane
Entrepreneurial Ctr. v. Spokane Moves to Amend Constitution, 185 Wn.2d 97, 100-01, 369 P.3d 140 (2016)
(afﬁrming trial court’s instruction that initiative be
struck from ballot after enough signatures were gathered to place it on ballot); Ruano v. Spellman, 81 Wn.2d
820, 821-22, 829, 505 P.2d 447 (1973) (afﬁrming trial
court’s decision to enjoin initiative from being placed
on ballot after it was certiﬁed that initiative had sufﬁcient signatures).
The status quo was that the Ordinance was in effect. The initiative sought to alter the status quo. Its
placement on the ballot was contingent upon satisfying
the legal requirements for an initiative. Whether it had
done so had not been established and was the subject
of the litigation. Respect Washington does not cite authority to the contrary. Where a party fails to cite authority in support of a proposition, this court “may
assume that counsel, after diligent search, has found
none.” DeHeer, 60 Wn.2d at 126.
The trial court did not improperly alter the status
quo by issuing the preliminary injunction.
C. Substantial Injury
Respect Washington argues that BCI has not
shown “any kind of substantial injury resulting from
Measure 1 on the ballot.” It asserts that, in BCI’s motion, the only speciﬁc injury it identiﬁed was the
“vague claim” of fear of and reluctance to engage with

19a
City personnel, ofﬁces, and services if Measure 1 becomes law.
In issuing the preliminary injunction, the trial
court stated,
The Court has carefully balanced the relative
interests of the parties and the interests of the
public. The injury if Measure No. 1 is placed
on the ballot now outweighs any delay in having the Measure on the ballot at a future point
in time; mere delay is not the same as an outright denial. The Court finds that Plaintiff
has established a clear legal right, a wellgrounded fear of immediate invasion of that
right, and that the action sought to be enjoined will result in actual and substantial injury.
BCI attached to its preliminary injunction motion
several declarations addressing future injury. One BCI
member, Hugo Garcia, stated that he has close friends
who shared that “they have stayed home and limited
the time they go out to restaurants or grocery shop due
to the anxiety and fear [from] the uncertainty of the
sanctuary city ordinance.” Rich Stolz, another BCI
member and Executive Director of OneAmerica, an immigrant and refugee advocacy organization, discussed
the effects of Measure 1 on the immigrant and refugee
community. He stated that the “polarizing debate over
[Measure 1] has raised fears in the immigrant and refugee community that they should not contact local law
enforcement if they need to report crimes or violations
of their own rights or property.”

20a
Sandy Restrepo, another BCI member and attorney, discussed the effect of Measure 1 on her immigrant clients. She shared that many of her immigrant
clients “have stated that they are afraid to send their
children to school, go to the grocery store and even call
the police to report a crime because the anti-immigrant
sentiment has increased since Respect Washington began collecting signatures.” She offered one example:
undocumented immigrant parents came to her ofﬁce
seeking legal advice, because they were afraid to report
to City police that their child was a victim of sexual
assault. They went to Restrepo ﬁrst to see if they would
risk deportation if they spoke to police ofﬁcers. She asserted that “[i]f these repeal efforts continue, our community will only continue to grow more afraid and not
be able to access basic services they are entitled to.”
Respect Washington argues that, even if BCI’s
claim of fear is not too vague, BCI’s claimed injury
“fails to support an injunction because of a lack of causation.” It relies on Clapper v. Amnesty International,
USA, 568 U.S. 398, 133 S. Ct. 1138, 185 L. Ed. 2d 264
(2013).
In Clapper, the plaintiffs sought an injunction
against surveillance authorized by Section 702 of the
Foreign Intelligence Surveillance Act of 1978, 50 U.S.C.
§ 1881 a. Id. at 401. They argued that they were suffering ongoing injuries fairly traceable to the law “because the risk of surveillance under § 1881 a require[d]
them to take costly and burdensome measures to protect the conﬁdentiality of their communications.” Id. at
415. The United States Supreme Court rejected this

21a
argument. Id. at 416. It found that “[r]espondents’ contention that they have standing because they incurred
certain costs as a reasonable reaction to a risk of harm
is unavailing—because the harm respondents seek to
avoid is not certainly impending.” Id. Thus, the Court
concluded that “respondents cannot manufacture
standing merely by inﬂicting harm on themselves
based on their fears of hypothetical future harm.” Id.
Unlike Clapper, the issue here is not standing, or
manufacturing standing. At issue here is whether residents of the City will be harmed by Measure 1’s placement on the ballot and passage. The declarations make
clear that harm will result when residents need to contact City employees regarding services or assistance
they are entitled to receive. Speciﬁcally, they make
clear that, if Measure 1 is placed on the ballot, residents’ fear of engaging with City personnel would persist. The mere possibility of Measure 1’s placement on
the November 2017 ballot made residents fearful of
deportation and question whether they should report
crimes to police. Even if the fear of deportation is a hypothetical future harm, residents’ decisions not to report crimes based on that fear would result in harm to
the community. And, if Measure 1 passes, residents
risk forgoing City assistance they are entitled to receive in order to avoid inquiries into their immigration
status. These harms are neither speculative nor manufactured.
The trial court did not abuse its discretion in ﬁnding that Measure 1’s placement on the ballot would result in actual and substantial injury.

22a
III. Local Initiative Power
Respect Washington argues that Measure 1
should not have been stricken from the ballot, because
it is within the scope of the local initiative power and
legislative in nature. The trial court determined that
Measure 1 is invalid because it exceeds the scope of the
initiative power and is administrative in nature.
Whether an initiative is beyond the scope of the local
initiative power is a question of law that this court reviews de novo. Protect Pub. Health v. Freed, 192 Wn.2d
477, 482, 430 P.3d 640 (2018).
This court generally disfavors preelection review.
Id. But, there are narrow exceptions to this prohibition. Id. One exception “involves determining whether
the ‘proposed law is beyond the scope of the initiative
power.’ ” Id. (quoting Seattle Bldg. & Constr. Trades
Council v. City of Seattle, 94 Wn.2d 740, 746, 620 P.2d
82 (1980)). While statewide initiatives are subject to
the scope of the state legislative power, local initiatives
are subject to the scope of the local legislative power.
Id. “These powers are not equivalent.” Id.
Under Amendment 7 to the Washington Constitution, “the people secured for themselves the right to
legislate directly.” City of Port Angeles v. Our WaterOur Choice!, 170 Wn.2d 1, 7-8, 239 P.3d 589 (2010).
However, Amendment 7 does not apply to municipal
governments. Id. The scope of the local initiative power
is instead governed by statutes and county charters,
“and preelection challenges are subject to a different
analysis.” Protect Pub. Health, 192 Wn.2d at 482. The

23a
State Supreme Court has recognized multiple limits on
the local initiative power, including the limit that “a
local ‘initiative is beyond the scope of the initiative
power if the initiative involves powers granted by the
legislature to the governing body of a city, rather than
the city itself.’ ” Id. at 482-83 (quoting City of Sequim v.
Malkasian, 157 Wn.2d 251, 261, 138 P.3d 943 (2006)).
A municipality’s governing body, also referred to
as its “legislative authority,” “includes the mayor and
the city council, but not the electorate.” Id. at 483.
“When the legislature enacts a general law granting
authority to the legislative body (or legislative authority) of a city, that legislative body’s authority is not
subject to ‘repeal, amendment, or modiﬁcation by the
people through the initiative or referendum process.’ ”
Mukilteo Citizens for Simple Gov’t v. City of Mukilteo,
174 Wn.2d 41, 51, 272 P.3d 227 (2012) (quoting Malkasian, 157 Wn.2d at 265). This court looks to the language of the relevant statute to determine the scope of
the authority granted by the legislature to the local
governing body. Id.
BCI argues that the legislature has delegated to
the City’s governing body, not the City itself, “the powers that Measure 1 seeks to wield through initiative.”
The City is a code city. BMC 2.26.010. Under RCW
35A.11.020, “The legislative body of each code city
shall have power to organize and regulate its internal
affairs within the provisions of this title and its charter, if any; and to deﬁne the functions, powers, and duties of its ofﬁcers and employees.” (Emphasis added.)

24a
Measure 1 seeks to repeal an ordinance that, under
RCW 35A.11.020, the legislature granted the Burien
City Council authority to pass—the power “to deﬁne
the functions, powers, and duties of its ofﬁcers and employees.” Measure 1 would also add a chapter to the
BMC providing that the City “shall not regulate the
acquisition of immigration status or religious afﬁliation unless such regulation is approved by a majority
vote of the City Council and a majority vote of the people at a municipal general election.” This provision
would further constrain the Burien City Council from
exercising its authority to deﬁne the functions, powers,
and duties of its ofﬁcers and employees on the subject
of immigration and religious inquiries.
Respect Washington argues that, in Our WaterOur Choice!, the State Supreme Court rejected a similar argument regarding RCW 35A.11.020. There, this
court struck two initiatives relating to the regulation
of Port Angeles’s water supply on the grounds that the
legislature intended Port Angeles’s legislative body,
not the city as a whole, to manage its water system.
Our Water-Our Choice!, 170 Wn.2d at 5, 14-15 n.7. It
relied on the provision in RCW 35A.11.020 that “ ‘[t]he
legislative body of each code city shall have all powers
[necessary for] operating and supplying of utilities and
municipal services commonly or conveniently rendered
by cities or towns.’ ” Id. at 14 n.7 (alteration in original).
The State Supreme Court afﬁrmed this court on
an alternative grounds, ﬁnding that the initiatives
were administrative in nature. Id. at 15-16. It did not

25a
reach the issue of whether the legislature intended
only for Port Angeles’s legislative body to manage its
water system. Id. at 14-15 n.7. But, it observed in a
footnote that, when read out of context, the citation to
RCW 35A.11.020 “could have unintended consequences.” Id. It explained,
Given that the same chapter of the RCW speciﬁcally authorizes noncharter code cities to
“provide for the exercise . . . of the powers of
initiative and referendum upon electing to
do so,” RCW 35A.11.080, reading RCW
35A.11.020 expansively strains the statutory
fabric. In our view, RCW 35A.11.020 grants
code cities broad, though speciﬁc, powers . . .
and does not necessarily speak to whether the
state legislature intended to grant those powers only to its municipal counterpart.
Id. (ﬁrst alteration in original). Thus, the court indicated that the powers the legislature granted the legislative bodies of code cities in RCW 35A.11.020 may
not be exclusive, and may be subject to a city’s initiative power. If that is the case, BCI’s argument fails.
Alternatively, the trial court here found that
Measure 1 is invalid because it is administrative in
nature. “[A]dministrative matters, particularly local
administrative matters, are not subject to initiative or
referendum.” Our Water-Our Choice!, 170 Wn.2d at 8.
Generally, “a local government action is administrative
if it furthers (or hinders) a plan the local government
or some power superior to it has previously adopted.”
id. at 10. The State Supreme Court has noted that

26a
discerning whether a proposed initiative is administrative or legislative in nature can be difﬁcult. Spokane
Entrepreneurial Ctr., 185 Wn.2d at 107. In one case, it
described the question as “whether the proposition is
one to make new law or declare a new policy, or merely
to carry out and execute law or policy already in existence.” Ruano, 81 Wn.2d at 823-24.
Measure 1 seeks to repeal the Ordinance, which
prohibits City employees from conditioning services on
an individual’s immigration status, and prohibits City
personnel from initiating an enforcement action based
solely on an individual’s immigration status, race, and
other factors. The Ordinance also states,
A goal of this legislation is to foster trust and
cooperation between city personnel and law
enforcement ofﬁcials and immigrant communities to heighten crime prevention and public
safety.
Since 1992, the King County sheriff ’s ofﬁce
has embraced this goal and outlined supporting policies in its operations manual, with
which this ordinance is consistent.
Another goal of this legislation is to promote
the public health of City of Burien residents.
On April 22, 2008, King County Superior
Court afﬁrmed the principle that our courts
must remain open and accessible for all individuals and families to resolve disputes on the
merits by adopting a policy that warrants for
the arrest of individuals based on their immigration status shall not be executed within

27a
any of the superior court courtrooms unless
directly ordered by the presiding judicial ofﬁcer and shall be discouraged in the superior
court courthouses, unless the public’s safety is
at immediate risk. Shortly after the afﬁrmation’s adoption, the King County Executive
and Immigration and Customs Enforcement
agreed to honor this policy.
In Global Neighborhood, this court found that a
similar initiative was administrative in nature, because it hindered a plan previously adopted by the local government. See 7 Wn. App. 2d at 399-400. There,
the Spokane City Council had enacted two ordinances
prohibiting Spokane Police Department ofﬁcers from
engaging in bias-based proﬁling, and, unless required
by law, from inquiring into a person’s immigration status. Id. at 367-68. These ordinances codiﬁed two previously adopted Spokane Police Department policies.
Id. at 367. One month later, Respect Washington submitted a proposed initiative, Proposition 1, that would
(1) amend one of the ordinances to eliminate citizenship status from the list of prohibited factors for city
police to consider during investigations, (2) repeal the
other ordinance, and (3) add a new code section that
would prohibit Spokane from limiting any city employee from collecting immigration status information
and sharing that information with federal authorities.
Id. at 360, 368.
In March 2017, Proposition 1 was placed on the
November 2017 ballot. Id. at 369. But, before the election, the trial court entered an injunction removing it

28a
from the ballot. Id. at 374. It determined that Proposition 1 was invalid because it was “administrative in
nature and thereby exceed[ed] the local initiative
power.” Id.
This court afﬁrmed the trial court on appeal. Id. at
405. In doing so, it recognized that Proposition 1 had
at least one characteristic in common with legislative
acts—it adopted “a rule of government permanent in
nature.” Id. at 398. And, it agreed with Respect Washington that Proposition 1 maintained some legislative
character “in that the initiative modiﬁe[d], if not reverse[d] in part, legislative policy established by the
city council.” Id. at 398-99. But, this court stated that
in “analyzing the legislative or administrative nature
of a municipal act, courts consider the framework of
the action.” Id. at 399. It explained that Proposition 1
challenged a Spokane policy, “whose framework’s base
consists of administrative building blocks.” Id.
Speciﬁcally, this court noted that Proposition 1 interfered with “Spokane Police Department policy to
limit the circumstances under which law enforcement
officers inquire about immigration and citizenship
status.” Id. Thus, it determined that Proposition 1 hindered a policy previously adopted by the local government. Id. It also observed that, though it was unaware
of any decision expressly holding that directions to employees constitute administrative policy, logic supports
the conclusion that “directions to employees constitute
administrative, not legislative, policy.” Id. at 400. And,
it emphasized “the need for expertise on the challenging and charged question of whether local government

29a
agents should question individuals about immigration
or citizenship status.” Id. It concluded that questioning
regarding one’s citizenship status should “be reserved
to the expertise of law enforcement administrators.” Id.
at 401.
Here, BCI does not argue that the Ordinance was
based on policies adopted by the Burien Police Department, similar to the ordinances in Global Neighborhood. But, a goal of the Ordinance is to “foster trust
and cooperation between city personnel and law enforcement ofﬁcials and immigrant communities to
heighten crime prevention and public safety.” The Ordinance is consistent with policies supporting this goal
in the King County Sheriff ’s Ofﬁce operations manual.9 The Ordinance also notes that the King County
Superior Court has adopted a policy that “warrants for
the arrest of individuals based on their immigration
status shall not be executed within any of the superior
court courtrooms unless directly ordered by the presiding judicial ofﬁcer.” And, it states that the Ordinance is
“intended to be consistent with federal laws regarding
communications between local jurisdictions and federal immigration authorities.”
Measure 1’s attempt to repeal the Ordinance and
forbid the Burien City Council from regulating immigration and religious afﬁliation inquiries is an attempt
to hinder a plan already adopted by the City. Rather
9
Consistency with the King County Sheriff ’s Ofﬁce operations manual is relevant, because the City contracts with the King
County Sheriff ’s Ofﬁce for police services.

30a
than a new law or policy, it is an obstacle to implementing the Ordinance, which is meant to be consistent
with King County policies and federal law.
The Ordinance also involves directions to City ofﬁcials, employees, and agents. It forbids them from
taking certain actions. Measure 1 would repeal these
directions. At oral argument, Respect Washington
agreed that Measure 1 is “untying [City staffs’] hands,”
and “saying . . . they are no longer prohibited from asking about immigration.” As this court noted in Global
Neighborhood, logic supports the conclusion that “directions to employees constitute administrative, not
legislative, policy.” 7 Wn. App. 2d at 400. Administrative matters are not subject to initiative or referendum. Our-Water-Our Choice!, 170 Wn.2d at 8.
And, as this court also noted, there is a need for
expertise on the question of whether local government
agents should question individuals about immigration
or citizenship status. Global Neighborhood, 7 Wn. App.
2d at 400. The “need to weigh conﬂicting goals before
establishing a policy of asking or withholding questioning regarding one’s citizenship status” is recognized in case law and literature. Id. at 400-01. “Local
law enforcement agencies must also navigate constitutional protections afforded residents before asking for
information on one’s status.” Id. at 401. Because these
factors implicate the success of law enforcement efforts, “questioning should be reserved to the expertise
of law enforcement administrators.” Id.

31a
Accordingly, we hold that Measure 1 is invalid because it is administrative in nature.10
We afﬁrm.
/s/ Appelwick, C.J
WE CONCUR:
/s/ Chun, J.

10

/s/ Verellen, J.

Because we hold that Measure 1 is invalid, we need not
reach Respect Washington’s argument regarding the petition
used to gather signatures for Measure 1.

32a
APPENDIX B
The Court of Appeals
of the
State of Washington
RICHARD D. JOHNSON,
Court Administrator/Clerk

January 4, 2018

DIVISION I
One Union Square
600 University Street
Seattle, WA
98101-4170
(206) 464-7750
TDD: (206) 587-5505

Dmitri L. Iglitzin
Schwerin Campbell
Barnard Iglitzin
18 W Mercer St Ste 400
Seattle, WA 98119-3971
iglitzin@workerlaw.com

Janine Elizabeth Joly
Ofﬁce of the
Prosecuting Attorney
500 4th Ave
Seattle, WA 98104-2337
janine.joly@kingcounty.gov

Laura Elizabeth Ewan
Schwerin Campbell
Barnard Iglitzin
18 W Mercer St Ste 400
Seattle, WA 98119-3971
ewan@workerlaw.com

Jennifer L Robbins
Schwerin Campbell
Barnard Iglitzin & La
18 W Mercer St Ste 400
Seattle, WA 98119-3971
robbins@workerlaw.com

Michael R. Kenyon
Kenyon Disend PLLC
11 Front St S
Issaquah, WA 98027-3820
mike@kenyondisend.com

Katelyn M Sypher
Attorney at Law
18 W Mercer St Ste 400
Seattle, WA 98119-3971
sypher@workerlaw.com

Hillary Evans Graber
Kenyon Disend
11 Front St S
Issaquah, WA 98027-3820
hillary@kenyondisend.com

Richard M. Stephens
Stephens & Klinge LLP
10900 NE 8th St Ste 1325
Bellevue, WA 98004-4748
stephens@sklegal.pro

33a
CASE #: 77500-6-I
Respect Washington, Petitioner v. Burien Communities
for Inclusion, Respondent
Counsel:
The following notation ruling by Commissioner Mary
Neel of the Court was entered on January 3, 2018, regarding Petitioner’s Motion for Discretionary Review:
In this pre-election challenge to an initiative petition,
defendant Respect Washington seeks review of trial
court order granting plaintiff Burien Communities for
Inclusion’s motion for a preliminary injunction, ruling
that the petition is invalid and prohibiting King
County from including or placing the measure on the
November 2017 ballot. Review will go forward.
On January 9, 2017, the Burien City Council on a 4-3
vote adopted Ordinance 651 (codiﬁed at Burien Municipal Code 2.26). The ordinance, titled “Immigration
Inquiries Prohibited,” bars City employees from conditioning services on citizenship or immigration status
and bars law enforcement and City ofﬁcials from making inquiries or taking enforcement actions based only
on a person’s immigration status, race, or inability to
speak or understand English, and prohibits the creation of a registry of religious afﬁliation. Respondent’s
Appendix (RA) at 23- 26. Among the goals of the legislation is to foster trust and cooperation between city
personnel and law enforcement with immigrant communities to heighten crime prevention and public health
and safety, consistent with policies of the King County
Sheriff ’s Ofﬁce and King County Superior Court.

34a
Craig Keller, a West Seattle resident and campaign
manager/treasurer/sole ofﬁcer of Respect Washington,
began an initiative campaign to repeal Ordinance 651
and amend another section of the Burien Municipal
Code to prohibit the City from regulating the acquisition of immigration status or religious afﬁliation without the vote of a majority of the electorate (Measure 1).
The initiative includes language that a “sanctuary
city” breeds disrespect for the law and a “call to action”
based on the premise that the ordinance chills deportation of criminals and threatens the safety of Burien
residents. RA at 34-36. On July 7, 2017, Keller presented elections ofﬁcials with signed petitions and requested that Measure 1 be placed on the November
2017 ballot. On July 21, 2017, the elections director
certiﬁed that enough signatures were veriﬁed. RA at
41-43.
On August 2, 2017, the Council considered its two
options: to adopt Measure 1 as set forth in the initiative petition, or adopt a resolution to place it on the
ballot. RA at 58. On August 7, 2017, at the Council’s
regularly scheduled meeting, it adopted Resolution
395, voting to place Measure 1 on the ballot. RA 50-51.
King County was prepared to place Measure 1 on the
November 2017 general election ballot and was scheduled to send the ballots to the printer on September 14,
2017. RA at 90.
On September 8, 2017, Burien Communities for Inclusion (BCI), a political action committee, ﬁled a complaint for a preliminary injunction. RA at 1-12. Respect
Washington opposed the motion.

35a
Courts generally disfavor reviewing initiatives prior to
enactment and will not consider a challenge to the substantive validity of a statewide initiative prior to the
election. Spokane Entreprenurial Center v. Spokane
Moves to Amend the Constitution, 185 Wn.2d 97, 104,
369 P.3d 140 (2016). But courts will conduct preelection review of local initiatives in two instances: procedural challenges, such as the sufﬁciency of signatures
and the ballot title, and challenges that the subject is
beyond the scope of the local initiative power. Id. An
initiative is beyond the scope of the initiative power if
it involves powers granted by the legislature to the
governing body of a city, rather than the city itself. In
other words, a grant of power to the city’s legislative
authority/body means the mayor and city council, and
not the electorate. Mukilteo Citizens For Simple Government v. City of Mukilteo, 174 Wn.2d 41, 51, 272 P.3d
227 (2012). An initiative is also beyond the scope of the
initiative power if it involves administrative matters.
Spokane Entreprenurial, 185 Wn.2d at 107. Generally,
a local government action is administrative if it furthers or hinders a plan the local government has previously adopted. Id. Accord Port Angeles v. Our WaterOur Choice, 170 Wn.2d 1, 10, 239 P.3d 589 (2010). One
way to phrase the issue is whether the ordinance
makes new law or declares a new policy, or merely carries out or executes existing law or policy. Id.
A preliminary injunction is an equitable remedy, the
purpose of which is to preserve the status quo until the
trial court can conduct a full hearing on the merits of
a claim. Northwest Gas Ass’n v. Wash. Utils. & Transp.

36a
Comm’n, 141 Wn. App. 98, 115-16, 168 P.3d 443 (2007).
To obtain injunctive relief, a party must show (1) that
it has a clear legal or equitable right, (2) that it has a
well-grounded fear of immediate invasion of that right,
and (3) that the acts complained of are either resulting
in or will result in actual and substantial injury. Kucera v. Dep’t of Transportation, 140 Wn.2d 200, 209,
995 P.2d 63 (2000); Tyler Pipe Indus., Inc. v. Dep’t of
Revenue, 96 Wn.2d 785, 792, 638 P.2d 1213 (1982). To
establish a clear legal or equitable right, the moving
party must show that it is likely to prevail on the merits at trial. San Juan County v. No New Gas Tax, 160
Wn.2d 141, 154, 157 P.3d 831 (2007).
On September 11, 2017, a superior court commissioner
granted a temporary restraining order, ruling that
Measure 1 is invalid, prohibiting its inclusion on the
general election ballot, and leaving the TRO in place
until the motion for a preliminary injunction could be
heard by a superior court judge on September 13, 2017.
Respect Washington was ordered to appear and show
cause why the TRO should be not converted to preliminary injunction. RA at 82-83.
On September 14, 2017, the trial court granted the motion for a preliminary injunction:
The Court has carefully balanced the relative
interests of the parties and the interests of the
public. The injury if Measure No. 1 is placed
on the ballot now outweighs any delay in
having the Measure on the ballot at a future
point in time; mere delay is not the same as
an outright denial. The Court ﬁnds that

37a
Plaintiff [BCI] has established a clear legal
right, a well-grounded fear of immediate invasion of that right, and that the action sought
to be enjoined will result in actual and substantial injury.
Being fully advised on the matter, the Court
GRANTS Plaintiff ’s Motion for Preliminary
Injunction and ORDERS that:
1.

City of Burien Initiative Measure No.
1 (“Measure 1 “) is invalid on the
grounds that (a) Measure 1 exceeds
the scope of the initiative authority
granted to the people of the City of
Burien, that it is administrative in
nature, and (b) the petition used to
gather signatures for Measure 1 violated RCW 35.21.005 by deviating from
the requirements of content and form
of a petition, as set forth in RCW
35.17.240 through 35.17.360;

2.

Defendants King County Elections
. . . and all [its] agents are prohibited
from including or placing Measure 1
on the November 7, 2017 ballot.

RA at 86-87.
Respect Washington seeks review of this order under
RAP 2.2(a)(3), or alternatively under RAP 2.3(b)(2).
Respect Washington argues that it has an appeal as of
right under RAP 2.2(a)(3), which provides for appeal of
“[a]ny written decision affecting a substantial right in
a civil case that in effect determines the action and

38a
prevents a ﬁnal judgment or discontinues the action.”
Respect Washington argues that the trial court order
did not merely ﬁnd that BCI was likely to prevail on
the merits, which is the standard for a preliminary injunction, but instead found that Measure 1 is invalid.
Respect Washington argues that the trial court order
granted BCI all of the relief it requested in its complaint, which was to “enjoin Measure 1 from being
included on the November 2017 ballot,” in effect determining and discontinuing the action.
Ordinarily a trial court order granting a preliminary
injunction is not appealable because it is a ﬁnal judgment. See Franklin County Sheriff v. Parmelee, 162
Wn. App. 289, 292-93, 253 P.3d 1131 (2011) (Franklin
County ﬁled notice of appeal/notice of discretionary review of tri court order issuing a preliminary injunction
enjoining release of records until hearing could be held
on request for permanent injunction; appellate court
commissioner ruled the order was not appealable and
granted discretionary review). Review instead is available if the petition meets the criteria for discretionary
review. See Filo Foods LLC v. City of SeaTac, 179 Wn.
App. 401, 405, 319 P.3d 817 (2014) (trial court order
removing initiative from general election ballot substantially altered the status quo by depriving voters
of chance to vote for or against it court of appeals reversed, and measure appeared on ballot). Respect
Washington does not have an appeal of right under
RAP 2.2(a) because there has been no ﬁnal judgment.
BCI sought a declaratory judgment that Measure 1 is
procedurally and substantively invalid and an

39a
injunction preventing Measure 1 from being placed on
the ballot. RA at 11. The trial court declared Measure
1 invalid and prohibited it from being placed on the
ballot. BCI argues that it neither obtained a declaratory judgment nor a permanent injunction. And the
trial court order, referring to mere delay in giving
Burien citizens an opportunity to vote on Measure 1,
appears to contemplate further action. But as a practical matter, BCI obtained the relief it requested. The
trial court enjoined King County Elections ofﬁcials
from placing Measure 1 on the ballot. The superior
court docket shows BCI has no taken further action in
the trial court to obtain a permanent injunction or
other relief. In this particular circumstance, Respect
Washington makes a persuasive argument that the
trial court order in effect determined and discontinued
the action and is therefore appealable under RAP
2.2(a)(3). I need not consider whether the trial court
order is probable error.
As BCI notes, during the same time frame, the City of
Spokane adopted an ordinance similar to Burien Ordinance 651. Respect Washington obtained sufﬁcient
signatures on its initiative petition to delete the ordinance (Proposition 1). The trial court granted Global
Neighborhood’s motion for declaratory relief, declared
Proposition 1 invalid (as administrative and therefore
beyond the scope of the initiative power), and prohibited it from being placed on the November 2017 ballot.
Respect Washington immediately appealed and sought
a stay of the trial court order. Global Neighborhood v.
Respect Washington, No. 35528-4-III. On September 1,

40a
201 Commissioner Wasson denied a stay. I note that
review in No. 35528-4-I is going forward as an appeal.
Therefore, it is
ORDERED that review will go forward as an appeal,
and the clerk will set a perfection schedule.
Sincerely,
/s/ Richard D. Johnson
Richard D. Johnson
Court Administrator/Clerk
lls

41a
APPENDIX C
THE HONORABLE ELIZABETH BERNS
SUPERIOR COURT OF WASHINGTON
IN AND FOR KING COUNTY
BURIEN COMMUNITIES
CASE NO.
FOR INCLUSION, a Washington
17-2-23799-0 KNT
political committee.
ORDER GRANTING
Plaintiff,
PLAINTIFF’S
v.
MOTION FOR
RESPECT WASHINGTON, a PRELIMINARY
Washington political committee; INJUNCTION
KING COUNTY ELECTIONS; (Filed Sep. 14, 2017)
JULIE WISE, KING COUNTY
DIRECTOR OF ELECTIONS,
in her ofﬁcial capacity at
KING COUNTY ELECTIONS;
and THE CITY OF BURIEN,
Defendants.
This matter came before the Court on Plaintiffs
motion for preliminary injunction. The Court heard
oral argument on the matter and considered the following when reaching its decision:
1.

Plaintiff ’s Motion for Preliminary Injunction;

2.

Declaration of Counsel Jennifer Robbins and
exhibits attached thereto;

3.

Declaration of Counsel Katelyn Sypher;

4.

Declaration of Jennifer Fichamba;

42a
5.

Declaration of Hugo Garcia;

6.

Declaration of Sandy Restrepo;

7.

Declaration of Rich Stolz;

8.

Dclaration of Janice Case in Response to Request for Injunctive Relief;

9.

Respect Washington’s Opposition to Motion
for a Preliminary Injunction;

10. Second Declaration of Janice Case in Response
to Request for Injunctive Relief.
The Court has carefully balanced the relative interests of the parties and the interests of the public.
The injury if Measure No. I is placed on the ballot now
outweighs any delay in having the Measure on the ballot at a future point in time; mere delay is not the same
as an outright denial. The Court ﬁnds that Plaintiff
has established a clear legal right, a well-grounded
fear of immediate invasion of that right, and that the
action sought to be enjoined will result in actual and
substantial injury.
Being fully advised on the matter, the Court
GRANTS Plaintiff ’s Motion for Preliminary Injunction
and ORDERS that:
1.

City of Burien Initiative Measure No. 1
(“Measure 1”) is invalid on the grounds that
(a) Measure 1 exceeds the scope of the initiative authority granted to the people of the
City of Burien, that it is administrative in nature, and (b) the petition used to gather signatures for Measure 1 violated RCW 35.21.005

43a
by deviating from the requirements for the
contents and form of a petition, as set forth in
RCW 35.17.240 through 35.17.360;
2.

Defendants King County Elections, Julie
Wise, King County Director of Elections, and
all agents of King County Elections are prohibited from including or placing Measure 1
on the November 7, 2017 ballot.

IT IS SO ORDERED this 14 day of September, 2017.
/s/ Elizabeth Berns
The Honorble Elizabeth Berns
King County Superior Court Judge
Presented by:
s/Jennifer L. Robbins
Jennifer L. Robbins, WSBA # 40861
Dmitri Iglitzin, WSBA #17673
Laura Ewan, WSBA # 45201
Katelyn Sypher, WSBA # 49759
Schwerin Campbell Barnard Iglitzin & Lavitt LLP
18 W Mercer St, Suite 400
Seattle, WA 98119
Phone: 206-257-6008
Fax: 206-257-6043
robbins@workerlaw.com
iglitzin@workerlaw.com
ewan@workerlaw.com
sypher@workerlaw. corn
Attorneys for Burien Communities for Inclusion

44a
APPENDIX D
THE SUPREME COURT OF WASHINGTON
BURIEN COMMUNITIES
FOR INCLUSION,
Respondent,
v.
RESPECT WASHINGTON,
Petitioner.

)
)
)
)
)
)
)

No. 97755-1
ORDER
Court of Appeals
No. 77500-6-I
Filed Jan. 8, 2020

Department II of the Court, composed of Chief
Justice Stephens and Justices Madsen, Wiggins, Gordon McCloud, and Montoya-Lewis (Justice Yu sat for
Justice Madsen), considered at its January 7, 2020,
Motion Calendar whether review should be granted
pursuant to RAP 13.4(b) and unanimously agreed that
the following order be entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 8th day of January, 2020.
/s/ Stephens, C.J.
CHIEF JUSTICE

45a
APPENDIX E
Constitutional Provisions at Issue
First Amendment to the United States Constitution:
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people peaceably to assemble, and to petition the
government for a redress of grievances.
Section 1 of the Fourteenth Amendment to the United
States Constitution:
No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any
state deprive any person of life, liberty, or
property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.

46a
APPENDIX F
Specification Regarding Federal Question
Petitioner raised the First Amendment issue in its
Opposition to Motion for Declaratory Judgment, attached hereto as Appendix G. This was the only brief
Petitioner ﬁled in the Superior Court which was the
ﬁrst court involved in this proceeding. The Superior
Court did not address the First Amendment-based argument at all. See Appendix C. The First Amendment
argument was also raised in the Washington Court of
Appeals which that Court rejected. See Appendix A. Petitioner also raised the First Amendment argument in
its Petition for Review to the Washington State Supreme Court, which was denied without opinion. See
Appendix G.

47a
APPENDIX G
The Honorable Elizabeth Berns
September 13, 2017 at 8:30 a.m.
SUPERIOR COURT OF WASHINGTON
IN AND FOR KING COUNTY
BURIEN COMMUNITIES
CASE NO.
FOR INCLUSION, a
17-2-23799-0 KNT
Washington political committee,
RESPECT
Plaintiff,
WASHINGTON’S
OPPOSITION TO
v.
MOTION FOR A
RESPECT WASHINGTON, a
PRELIMINARY
Washington political committee; INJUNTION
KING COUNTY ELECTIONS;
JULIE WISE, KING COUNTY
DIRECTOR OF ELECTIONS,
in her ofﬁcial capacity at KING
COUNTY ELECTIONS; and
THE CITY OF BURIEN,
Defendants.
INTRODUTION
Defendant Respect Washington is the sponsor of
Proposition 1 to the City of Burien. Counsel received a
copy of Plaintiffs’ Motion for Preliminary Injunction at
around noon today. The Court should reject Plaintiffs’
demand for a preliminary injunction at the last minute
when Proposition 1 has been in the news and the subject of City Council meeting discussions for numerous
weeks. The harm to Plaintiffs in having the election

48a
and having their issues decided later, and only if the
measure is adopted by the voters, is the better result
than the burden this motion imposes on the Court and
the other parties.
I
PLAINTIFFS ARE NOT ENTITLED
TO A PRELIMINARY INJUNCTION
The law is clear that a preliminary injunction is
not “proper in a doubtful case.” Tyler Pipe Indus., Inc.
v. Department of Rev., 96 Wash.2d 785, 793, 638 P.2d
1213 (1982) (quoting Isthmian S.S. Co. v. National Marine Eng’rs Beneﬁcial Ass’n, 41 Wash.2d 106, 117, 247
P.2d 549 (1952). Not only must there be a clear legal or
equitable right at stake, there must be a clear showing
of damage based on speciﬁc facts. Kucera v. State Department of Transportation, 140 Wn.2d 200 (2000).
Plaintiffs have not met these requirements.
A. Plaintiffs are not Entitled to an Injunction Because of the Statute of Limitations or Laches
Plaintiffs’ complaint is clear that they are bringing
their claim under the Uniform Declaratory Judgments
Act (UDJA), RCW 7.24.010. The UDJA does not have
its own statute of limitations so Courts are to apply an
analogous statute of limitations. Schreiner Farms, Inc.
v. American Tower, Inc., 173 Wn. App. 154 (2013).

49a
For an election related challenge, the analogous
statutes of limitations are quite short. For instance, a
challenge to a ballot title must be commenced within 5
days. RCW 29A.72.080. A judicial challenge on refusal
to ﬁle an initiative must be ﬁled in court within 10
days. RCW 29A.72.180. A challenge to a ballot title for
a City initiative is only 10 days. RCW 29A.36.090.
The City Council considered Proposition 1 at an
open public meeting on July 31, 2017. It voted to place
Proposition 1 on the ballot at an open public meeting
on August 7, 2017. A challenge to this decision should
have been made within 5 or ten days of August 7. It
was not ﬁled until a month later, at far later than the
proverbial 11th hour.
Additionally, an injunction is an equitable remedy
and laches is an equitable defense. Because laches applies, Plaintiffs are not entitled to an injunction at this
late stage in the election process. There is no question
that his injunction remedy is subject to laches. See
Ronberg v. Smith, 132 Wash. 345, 232 P. 283 (1925).
Laches is particularly applicable in election-related
lawsuits. See LaVergne v. Boysen, 82 Wn.2d 718 (1973).
In Buell v. Bremerton, 80 Wash.2d 518, 522, (1972),
the Court we set forth the general elements of laches.
The elements of laches are: (1) knowledge or
reasonable opportunity to discover on the part
of a potential plaintiff that he has a cause of
action against a defendant; (2) an unreasonable delay by the plaintiff in commencing that

50a
cause of action; (3) damage to defendant resulting from the unreasonable delay.
Lopp v. Peninsula School Dist. No. 401, 90 Wn.2d 754,
760 (1978).
Here, the Plaintiffs should have been aware, there
was certainly a reasonable opportunity to discover that
Proposition 1 would be placed on the ballot given the
City’s public decisions and deliberations over a month
ago. The lawsuit was not ﬁled until September 8, 2017.
The ﬁrst brieﬁng in this case, the ﬁrst ﬁling for the
temporary restraining order was not ﬁled until September 11, 2017 and the preliminary injunction motion
was emailed around noon today. The delay in commencing the case and brieﬁng the motion is unreasonable.
Even if the ﬁve and ten day time limits are not
treated as statutes of limitations for this UDJA claim,
those time limits evidence that the delay in this case
was unreasonable for purposes of laches.
The last minute nature of this action has caused
Respect Washington damage. It was forced to send its
attorney to Kent for a hearing on a TRO with no opportunity to read the moving papers. It submits a motion
for a preliminary injunction in the same last minute
manner, allowing for only minimal last minute brieﬁng
on important issues that impact the opportunity of the
people of Burien to vote. It is far more consistent with
the public interest to allow the vote to go forward and
allow Plaintiffs’ arguments to be thoroughly vetted

51a
after the election, if the measure is even adopted by the
voters.
B. Plaintiffs have not Shown the Requisite
Substantial Injury to Obtain a Preliminary Injunction
While Plaintiffs have made allegations sufﬁcient
to confer standing for a timely ﬁled complaint (which
this is not), the law is clear that injunctive relief requires proof of substantial injuries in order to obtain
the extraordinary relief of injunctive relief. In Kucera
v. State, Dept. of Transp., 140 Wn.2d 200 (2000), the Supreme Court held that Plaintiffs were not entitled to
an injunction to stop a project that was required to undergo environmental review under the State Environmental Policy Act (SEPA), and did not, without proof of
damages.
Here, Plaintiffs have alleged harms related to the
initiative signature gathering stage, which is now over,
alleged harms if the initiative were to be approved by
the citizens of Burien, which are simply unripe and
speculative in that there is no assurance that the
measure will pass, and harms associated with the very
fact that debate is going on in the public square about
the initiative. This last group of harms is what reveals
what this lawsuit is really about—a political device to
shut down the opportunity for people to vote and is an
infringement on free speech.
Plaintiffs have not proven that a mere vote of the
people is damaging and they have timed the ﬁling of

52a
this suit is such a way that it is impossible for their
allegations of harm to be tested. The motion should be
denied.
C. The Initiative Process in Burien is a Public Forum Deserving of Protection under
the First Amendment.
Statewide initiatives are authorized by Article II,
Section 1 of the Washington Constitution. Local initiatives are authorized by state law and, in this case, by
the municipal charter. Regardless of the legal origin of
the right to petition government and have a public vote
on a proposed law, the initiative process is an exercise
of the right in Article I, Section 4 of the Washington
Constitution to petition government. The right to petition government extends to all levels and departments
of the government. In re Marriage of Meredith, 148 Wn.
App. 887, 899 (2009) (citations omitted). The vote constitutes the opportunity for all voters, whether in favor
or opposed to Proposition 1, to petition the City of
Burien with their vote on these policies.
Likewise, the initiative process including the ﬁnal
step of a public vote is imbued with free speech considerations. While there may not be any right to have a
local initiative process, when it does exist, as here, it
must be remembered that it is a public forum for free
speech.
Speech within the initiative and referendum process “is at the heart of the First Amendment’s protection.” First National Bank of Boston v. Bellotti, 435 U.S.

53a
765, 776 (1978) (regarding a referendum proposal submitted to Massachusetts voters to amend the state constitution). As the U.S. Supreme Court said in Mills v.
State of Alabama, 384 U.S. 214, 218 (1966), “there is
practically universal agreement that a major purpose
of [the First] Amendment was to protect the free discussion of governmental affairs.”
Initiatives, by their very nature, typically discuss
governmental affairs. As such, the initiative process, as
a whole, is protected political speech under the First
Amendment. See Meyer v. Grant, 486 U.S. 414, 442
(1988) (“the circulation of a petition involves . . . core
political speech”).
While there is no federal right that a state have an
initiative process, the initiative process, once established, constitutes a public forum. Though the public
forum doctrine ﬁrst arose in the context of streets and
parks, it has been extended to school publications (Rosenberger v. Rector and Visitors of University of Virginia,
515 U.S. 819 (1995)), charitable contribution programs,
(Cornelius v. NAACP Legal Defense and Educational
Fund, Inc., 473 U.S. 788 (1985)), and school mail systems (Perry Educ. Ass’n v. Perry Local Educators’ Ass’n,
460 U.S. 37 (1983)). Like a state funded publication,
the initiative process “is a forum more in a metaphysical than in a spatial or geographic sense, but the same
principles are applicable.” Rosenberger, 515 U.S. at
830.
The free speech implications of prohibitions on
initiative elections was also recognized by the

54a
Washington Supreme Court in Coppernoll v. Reed, 155
Wn. 2d 290, 296-97 (2005).
Because ballot measures are often used to express popular will and to send a message to
elected representatives (regardless of potential subsequent invalidation of the measure),
substantive preelection review may also unduly infringe on free speech values. For example, after voter passage of Initiative 695
requiring $30 vehicle license tabs, it was
ruled invalid by the trial court. A nearly identical measure was quickly passed by the legislature and signed by the governor before an
appeal could be heard.
Id. at 298. While the Court referred to “substantive
preelection review” (which is not allowed), the reality
is that any action which prohibits the vote infringes on
free speech values.
Because of the free speech values at stake, the
Court should be certain that Plaintiffs have proven
sufﬁcient injury to justify the prohibition on an opportunity to vote in addition to proving all other elements
for obtaining the drastic relief of removing a matter
from an election.
D. The City Cannot Collaterally Attack Judge
Bowman’s Prior Order.
It is not clear when the City was served with this
lawsuit and Respect Washington has seen no response
from the City. However, the City cannot join the Plaintiffs’ arguments without collaterally attacking a prior
Court order.

55a
When the City failed to place Proposition 1 on the
ballot by the August 1, 2017 deadline, Respect Washington ﬁled a petition for writ of mandate against the
City and naming the King County Elections Ofﬁcial,
Julie Wise, as an interested party. In response, the City
Council decided to notify the Julie Wise that Proposition 1 should be placed on the ballot and Ms. Wise
agreed to place Proposition 1 on the ballot despite an
August 1, 2017 deadline. Thereafter, Judge Bowman issued an order dismissing the petition for writ of mandate as being moot in light of these representations. A
copy of the order is attached hereto as Exhibit 1.
E. Even if Plaintiffs had Proven Substantial Injury, they are not Clearly Likely to
Prevail on the Merits.
Plaintiffs claim they are entitled to relief on the
grounds that Proposition 1 exceeds the scope of the initiative power. While that is one of the narrow bases for
pre-election review of initiatives, proof that exceeds
the scope of the initiative power is not in itself sufﬁcient to justify removing it from the ballot. There is
plenty of opportunity to for judicial review in a less
rushed fashion to consider these issues after the election.
1.

Proposition 1 is not Purely Administrative.

“Generally speaking, a local government action is
administrative if it furthers (or hinders) a plan the

56a
local government or some power superior to it has previously adopted.” Our Water-Our Choice!, 170 Wn. 2d
at 10. “The power to be exercised is legislative in its
nature if it prescribes a new policy or plan; whereas, it
is administrative in its nature if it merely pursues a
plan already adopted by the legislative body itself, or
some power superior to it.” Our Water-Our Choice, 170
Wn. 2d at 11 (quoting Durocher v. King Cty., 80 Wn. 2d
139, 153 (1972)).
Discerning whether a proposed initiative is administrative or legislative in
nature can be difﬁcult. Justice Brachtenbach suggested that at least for the case before the court at the time, the appropriate
question was “whether the proposition is one
to make new law or declare a new policy, or
merely to carry out and execute law or policy
already in existence.” Ruano [v. Spellman], 81
Wn. 2d [820,] 823 [1973], 505 P.2d 447 (citing
People v. City of Centralia, 1 Ill.App.2d 228,
117 N.E.2d 410 (1953)).
Our Water-Our Choice!, 170 Wn.2d at 10 (emphasis
added). Here, it is quite clear that Proposition 1 seeks
to make a new City law and thus to declare a new City
policy.
In discussing Ruano, the Court in Our Water-Our
Choice!, noted that the bonds for building the stadium
had been authorized as an unchallenged legislative decision, but the initiative related to the implementation
of the decision, namely, the construction of the stadium. Ruano, 81 Wn.2d at 824-25. Selecting a

57a
contractor, the exact price of construction and terms of
payment were administrative decisions implementing
the legislative policy to build the stadium. Id. Here, the
initiative’s proposal about policy is just as much a legislative decision as is the decisions on the same subject
made by the City Council, decisions which were not
made by a City administrator, but only by the adoption
of an ordinance—an inherently legislative act.
Proposition 1 is legislative because it would establish a new policy for the City of Burien if voters choose
to adopt it. See City of Port Angeles, 170 Wn. 2d at 11.
Plaintiffs have not proven a clearly likelihood of prevailing on the merits and the preliminary injunction
should be denied.
2.

The Legislature has not Given the City
Council Exclusive Authority to deal with
issues related to Immigration Status.

Although Plaintiffs complain that Proposition 1
would prohibit the legislative body from repealing the
initiative, if passed, there is plenty of opportunity to
determine the legality of such a provision, if in fact the
measure is adopted by the voters. No statute is cited to
prove such a provision is illegal. Nonetheless, the argument that RCW 35A.11.020 is a legislative direction
that only the City council can make policy decisions regarding personnel activities is unconvincing.
The Court in 1000 Friends of Washington v. McFarland, 159 Wn.2d 165 (2007) made clear that this particular issue is not simply a search for a reference to

58a
the “legislative authority” in the statute to see if initiative and referenda are prohibited.
As Professor Trautman noted:
One wonders whether the state legislature in delegating certain powers to local
governments is very often thinking of the
initiative and referendum when it authorizes the “city council” or the “legislative body” rather than the “city” to do
something, or whether the particular
choice of words is happenstance. One
wonders whether the legislature is not
more likely concerned with the subject
matter of the particular legislation and
the felt need for delegation of authority to
the local level without thinking about
who at the local level should exercise the
power. . . .
If, in reality, the legislature did intend
that only the municipal legislative body
should have power in a particular instance, that must control. The danger, of
course, is that the wording in the statute
will be taken at face value and will substitute for reasoning in the particular instance.
Trautman, supra, 49 Wash. L.Rev.. at 83 (footnotes omitted).
We agree. Reasoning is required. We also note
that the phrase “legislative authority” does
not have a monolithic meaning in our case
law, but rather has long depended on the context and purpose. In State ex rel. Linn v.

59a
Superior Court, 20 Wash.2d 138, 155, 146 P.2d
543 (1944), for example, this court held that
the “legislative authority” of a county could include the people acting in a legislative capacity and proposing an initiative, and thus the
people were bound by the procedures laid
down in the state constitution for the “legislative authority” when attempting to amend a
municipal charter. Id. Again, the entire statutory schema must be read with care to determine the intent of the legislature.
McFarland, 159 Wn.2d at 177-78.
The difﬁculty with the Plaintiffs’ request for an injunction is that there is not sufﬁcient time to review
the entire statutory schema, which is essential to determine whether the legislature intended to prohibit
initiatives such as Proposition 1. The propriety of Proposition 1 on this issue should be deferred to an appropriate time after the election.
3. An Injunction is not Appropriate on the
Grounds that the Petition failed to follow Format Requirements.
Plaintiffs complain that the petition must “include
a concise statement of the action or relief.” RCW
35.21.005(1). They actually do not dispute that Proposition 1 has a concise statement. Instead, they argue
that this requirement means the petitions cannot contain campaign rhetoric. There is no Washington law to
support that position, which is presumably why they
look to cases from Alaska and Oklahoma. In fact, the
Washington Supreme Court has readily acknowledged

60a
that initiative petitions can contains what it euphemistically referred to as “policy ﬂuff.” “A preface or preamble stating the motives and inducement to the
making of [the law] . . . is without force in a legislative
sense. It is no part of the law.” Pierce Cty. v. State, 150
Wn. 2d 422, 434 (2003) (quoting State ex rel. Berry v.
Superior Court for Thurston County, 92 Wash. 16, 3032 (1916)). Despite some language on a petition being
merely designed to induce people to sign petitions or
vote for the measure, there is no authority in the State
of Washington that campaign rhetoric cannot be on an
initiative petition. It often is.
II
IF A PRELIMINARY INJUNCTION WERE
GRANTED, PLAINTIFFS SHOULD BE
REQURIED TO POST A BOND
The law is clear:
if an injunction is sought at the instance
of a private party, then a bond must be posted
throughout all preliminary injunctive proceedings and until the injunction is ﬁnal.
RCW 7.40.080.
Irwin v. Estes, 77 Wn.2d 285 (1969). If the Court were
to grant the injunction, it should do so only upon the
proper posting of a bond to be determined.

61a
CONCLUSION
As the proponent of Proposition 1 which helped
gather the signatures from thousands of Burien residents, Respect Washington urges the Court to deny the
last minute request for an injunction that would deprive people of the right to vote. Never before has a
court entered an injunction to stop a public vote on a
matter so late in the process. The equitable balance
tips in favor of allowing the citizens of Burien to vote
and to address Plaintiffs’ legal arguments after the
election.
RESPECTFULLY submitted this 12th day of September, 2017.
STEPHENS & KLINGE LLP
By: /s/ Richard M. Stephens
Richard M. Stephens,
WSBA #21776
Attorneys for Defendant
Respect Washington

62a
EXHIBIT 1
IN THE SUPERIOR COURT OF THE
STATE OF WASHINGTON
IN AND FOR THE COUNTY OF ICING
CRAIG KELLER and
CARLOS (CHUCK)
WRANGEL
Plaintiffs,
vs.
CITY COUNCIL of the
CITY OF BURIEN, a
municipal corporation,
Defendant
JULIE WISE, Director of
King County Elections
Department,

No. 17-2-205273
[PROPOSED]
STIPULATED
ORDER ON
APPLICATION
FOR WRIT OF
MANDATE
URGENT
ELECTION-RELATED
MATTER

Interested Party.
Proposition 1 to the City of Burien (City) is an initiative to the City which was certiﬁed by the King
County Elections Department on July 21, 2017 as having sufﬁcient signatures. As of August 1, 2017, the City
Council had not decided whether to adopt the proposed
ordinance or to contact the King County Elections Department to cause Proposition 1 to be placed on the November ballot as provided in RCW 35.17,260.
On August 2, 2017, Petitioners ﬁled a complaint
and application for a writ of mandate to compel the

63a
City of Burien and its City Council to choose under
RCW 35,17,260 either to adopt ‘ Proposition 1 as an
ordinance without alteration or to call for a special
election on Proposition 1 for the November 2017 election. The matter was considered urgent by Plaintiffs
because August 1, 2017 is the “day of the primary” referenced in RCW 29A.04,330(3) for submission by the
City to the King County Elections Department for local
matters to be placed on the November, 2017 ballot,
On August 7, 2017, the Burien City Council voted
to submit Proposition 1 to the ballot and to notify the
King County Elections Department of its decision, Interested Party, Julie Wise, the Director of the King
County Elections Department, has stated that she will
process Proposition 1 to the City of Burien for the November, 2017 ballot pursuant to Chapter 35.17 RCW,
Since the King County Elections Department will
place Proposition 1 on the November ballot, the Court
concludes that the application for a writ of mandate is
moot.
DONE IN OPEN COURT THIS 10th day of August, 2017
/s/ [Illegible]
The Honorable Bill Bowman
King County Superior Court
Judge

64a
Presented by:
STEPHENS & KLINGE LLP
By /s/ Richard M. Stephens
Richard M. Stephens,
WSBA 21776
Attorneys for Plaintiff
By /s/ [Illegible] M. Kenyon
[for] Michael Kenyon,
WSBA 51598
Attorneys for Defendant
By /s/ Janine Joly
Janine Joly, WSBA 27314
Attorneys for Interested
Party, Julie Wise
Director of Kink County
Elections Department

65a
APPENDIX H
Initiative Petition to REPEAL
Burien’s “Sanctuary City” Ordinance 651
TO: The City Council of the City Of Burien:
Concise statement of the action or relief sought:
We, the undersigned registered voters of the City of
Burien, Washington require that, unless enacted by
the City Council, this ordinance – on reverse – be submitted to a vote of the registered voters of the City of
Burien, subject to the requirements of BMC 1.10 and
RCW 35A11.080-.100.
Proposed Ballot Title: Burien Initiative No. 1
concerns immigration inquiries.
Proposed Ballot Summary and Concise Description: This measure would repeal BMC Chapter 2.26
“IMMIGRATION INQUIRIES PROHIBITED” [Ordinance 651], amend Chapter 9 Public Peace, Morals
and Welfare and prohibit City of Burien from regulating the acquistion of immigration status or religious
afﬁliation without majority votes of Council and
voters.

66a
REQUIRED WARNING:
Every person who signs this petition with any other
than his or her true name, or who knowingly signs
more than one of these petitions, or signs a petition
seeking an election when he or she is not a legal
voter, or signs a petition when he or she is otherwise
not qualiﬁed to sign, or who makes herein any
false statement, shall be guilty of a misdemeanor.
I am a legal voter of The City of Burien, State of
Washington. My residence address is correctly
stated. I have personally signed this petition.

67a

68a
Please ask a friend or family member to
join you in SIGNING today and then mail to:
RESPECT WASHINGTON, P.O. Box 66634,
Burien, WA 98166. Petitions must be
received by July 5th. Questions?
Please phone (206) 935-3505.
Sign and mail IMMEDIATELY! Thank you!
CALL TO ACTION: Don’t be fooled by Councilmember doubletalk about Ordinance 651. A mere four of
them blocked our police from investigating whether
criminals and gang members in their custody are
here illegally. “Sanctuary city” ordinances chill the
sharing of such information with U.S. Citizenship
and Immigration Services which works for us to process criminals for deportation. Ord. 651 threatens the
safety of every Burien citizen and legal resident by
allowing criminal aliens, like the one who shot Kate
Steinle in San Francisco, to prey upon others inside
our once peaceful town. You have the right to live in
a Burien which is safe!
Please sign today!
BE IT ENACTED BY THE PEOPLE OF THE CITY OF
BURIEN:
Section 1. New Chapter 9.20 is hereby added to the
Burien Municipal Code “Public Peace, Morals and Welfare” to read as follows:
9.20 Citizen Protection of Effective Law Enforcement:
The City of Burien shall not regulate the acquisition of
immigration status or religious afﬁliation unless such
regulation is approved by a majority vote of the City
Council and a majority vote of the people at a municipal general election.

69a
Section 2. Chapter 2.26 BMC (Ord. No. 651) relating
to the prohibition of immigration inquiries, including
“Findings” propaganda, is hereby repealed.
Chapter 2.26
IMMIGRATION INQUIRIES PROHIBITED
Sections:
2.26.010 Findings.
2.26.020 Prohibition on inquiring into immigration status.
2.26.030 Prohibition on collecting information
regarding religious afﬁliation.
2.26.010 Findings.
The city of Burien is a code city organized under
Chapter 35.02 RCW and Article 11, Section 10 of the
Washington State Constitution. Under its police
powers, the city may exercise any power and perform
any function, unless preempted by state or federal
law, relating to its government and affairs, including
the power to regulate for the protection and rights of
its inhabitants. To this end, the city is dedicated to
providing all of its residents fair and equal access to
services, opportunities and protection.
The enforcement of civil immigration laws have historically been a federal government responsibility
through the Immigration and Naturalization Service. Since 2002, matters of immigration law have
been handled by the Ofﬁce of Immigration and Customs Enforcement, a branch of the Department of
Homeland Security. Requiring local law enforcement
agencies, which are not speciﬁcally equipped or

70a
trained, to enforce civil immigration laws forces local
governments to expend their limited resources to
perform traditionally federal functions.
A goal of this legislation is to foster trust and cooperation between city personnel and law enforcement
ofﬁcials and immigrant communities to heighten
crime prevention and public safety.
Since 1992, the King County sheriff ’s ofﬁce has embraced this goal and outlined supporting policies in
its operations manual, with which this chapter is
consistent.
Another goal of this legislation is to promote the
public health of city of Burien residents.
On April 22, 2008, King County superior court afﬁrmed the principle that our courts must remain
open and accessible for all individuals and families
to resolve disputes on the merits by adopting a policy
that warrants for the arrest of individuals based on
their immigration status shall not be executed
within any of the superior court courtrooms unless
directly ordered by the presiding judicial ofﬁcer and
shall be discouraged in the superior court courthouses, unless the public’s safety is at immediate
risk. Shortly after the afﬁrmation’s adoption, the
King County executive and Immigration and Customs Enforcement agreed to honor this policy.
This chapter is intended to be consistent with federal laws regarding communications between local
jurisdictions and federal immigration authorities,
including but not limited to United States Code Title
8, Section 1373. [Ord. 651 § 1, 2017]

71a
2.26.020 Prohibition on inquiring into immigration status.
Except as provided in this section or when otherwise
required by law, a city ofﬁce, department, employee,
agency or agent shall not condition the provision of
city services on the citizenship or immigration status of any individual.
(1) Nothing in this chapter shall be construed to
prohibit any city of Burien ofﬁcer or employee from
participating in cross-designation or task force activities with federal law enforcement authorities.
(2) The city of Burien personnel shall not request
speciﬁc documents relating to a person’s civil immigration status for the sole purpose of determining
whether the individual has violated federal civil immigration laws. The documents include but are not
limited to: passports; alien registration cards; or
work permits.
(3) The city of Burien personnel may use documents relating to a person’s civil immigration status
if the documents are offered by the person upon a
general, nonspeciﬁc request.
(4) The city of Burien personnel shall not initiate
any inquiry or enforcement action based solely on a
person’s:
(a) Civil immigration status;
(b) Race;
(c) Inability to speak English; or
(d) Inability to understand city personnel or its
ofﬁcers.

72a
(5) Except when otherwise required by law, where
the city accepts presentation of a state-issued
driver’s license or identiﬁcation card as adequate evidence of identity, presentation of a photo identity
document issued by the person’s nation of origin,
such as a driver’s license, passport or matricula consular, which is a consulate-issued document, shall be
accepted and shall not subject the person to a higher
level of scrutiny or different treatment than if the
person had provided a Washington State driver’s license or identiﬁcation card. However, a request for
translation of such a document to English shall not
be deemed a violation of any provision of this chapter
and any subsequent ordinance. This provision does
not apply to documentation required to complete a
federal I-9 employment eligibility veriﬁcation form.
(6) This section does not create or form the basis
for liability on the part of the city, its ofﬁcers, employees or agents.
(7) Unless permitted by this chapter or otherwise
required by state or federal law or international
treaty, all applications, questionnaires and interview
forms used in relation to the provision of city beneﬁts, opportunities or services shall be promptly reviewed by each agency, and any question requiring
disclosure of information related to citizenship or
immigration status shall be, in the agency’s best
judgment, either deleted in its entirety or revised
such that the disclosure is no longer required. [Ord.
651 § 1, 2017]

73a
2.26.030 Prohibition on collecting information
regarding religious affiliation.
(1) No Burien ofﬁcial, including any agent or contracted agent, may collect information or establish
or otherwise utilize a registry, database, or similar
for the purpose of classifying any person on the basis
of religious afﬁliation, or conduct any study related
to the collection of such information or the establishment or utilization of such a registry, database, or
similar.
(2) Rule of Construction. Nothing in this section
may be construed as prohibiting the collection of information that is voluntarily provided, including relating to the decennial census. [Ord. 651 § 1, 2017]
Section 3. Construction: The provisions of this measure are to be liberally construed to effectuate the intent, policies, and purposes of this measure.
Section 4. Severability: If any provision of this act or
its application to any person or circumstance is held
invalid, the remainder of the act or he application of
the provision to other persons or circumstances is not
affected.
-ENDLEGISLATIVE HISTORY
Burien City Council passed Ord. 651 on Jan. 9, 2017
Voting “YES”
Berkowitz [sponsor]
Bell
Tosta
Armstrong

74a
“Respect for Law” Realists Voting “NO”:
Edgar
Krakowiak
Wagner
Dear Citizen:
A “sanctuary” city breeds disrespect for the rule of
law. Illegal immigration is not a victim-less crime. It
deprives unemployed citizens and legal residents of
work opportunities, depresses wages, penalizes employers who obey the law, encourages the use of
fraudulent documents and stolen Social Security
numbers – particularly those of children. Please sign
and mail immediately to earn yourself a vote!
INSTRUCTIONS:
STEP 1: Make 2-sided copies of this petition for
friends. Or print 2-sided from a PDF downloaded
from www.RespectWashington.us
STEP 2: Fill signature lines immediately. Signed
petitions must be received at our P.O. Box by July
5th, 2017. Do not procrastinate. Fill petition this
week.
STEP 3: Mail petition and contribution
(checks please, no cash) to:
www.RespectWashington.us
P.O. Box 66634, Seattle, WA 98166
(206) 935-3505
Please help us cover the costs of this petition.

